HHS/OIG, Audit -"Review of Title IV-E Adoption Assistance Maintenance Payments in Maine for
the Period July 2000 Through June 2003,"(A-01-04-02503)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Title IV-E Adoption Assistance Maintenance Payments in Maine for the Period July
2000 Through June 2003," (A-01-04-02503)
April 8, 2005
Complete
Text of Report is available in PDF format (476 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Maine Department of Health and Human Services (the agency)
complied with Federal eligibility requirement in claiming adoption assistance payments for Federal
reimbursement.  While the agency met the Federal adoption assistance eligibility requirements
for 966 of 1369 children in State fiscal year (SFY) 2001, the agency inappropriately claimed adoption
assistance maintenance payments for the remaining 403 children.  The agency continued to claim
adoption assistance payments for 310 of the 403 ineligible children in SFY 2002 and 261 in SFY 2003.  As
a result, the agency over claimed $4.2 million (Federal share).
We recommended that the agency: (1) make a financial adjustment of $2.5 million on its next Federal
Quarterly Report of Expenditures; (2) work with ACF to resolve the $1.7 million in over claimed payments
for children not meeting judicial determination requirements; (3) claim adoption assistance payments
only for children that meet Federal eligibility requirements; (4) ensure that eligibility specialists
completely and accurately enter all manual transactions in the State IV-E computer system; (5) claim
adoption assistance payments only for children for whom judicial determinations were made within the
required time period; (6) maintain eligibility information in the adoption assistance case files as
required; and (7) identify any new adoption assistance cases in SFYs 2002 or 2003 that were claimed
in error and make the appropriate financial adjustment.  The agency concurred with our findings
and recommendations.